fe } ONTARIO COUNTY DISTRICT ATTORNEY’S OFFICE
Jen b ONTARIO COUNTY COURTHOUSE
ij 27 NORTH MAIN STREET
x CANANDAIGUA, NEW YORK 14424
hn. Phone: 585.396.4010 | Fax: 585.396.4860
il S Email: James.Ritts@co.ontario.ny.us

JAMES B. RITTS
District Attorney

February 10, 2021
Via USPS Priority Mail

Clerk of the Court
Supreme Court of the United States
1 First Street, N.E. Washington, D.C. 20543

Re: Angnem Green v. People of the State of New York — No. 20-6871
To the Clerk of the Court:

| represent the Respondent in the above referenced case. Petitioner Angnem Green filed
his Petition for Writ of Certiorari on December 21, 2020 and the matter was placed on the docket
on January 13, 2021. Respondents’ brief in opposition to the Petition for Writ of Certiorari is due
on or before February 12, 2021. Pursuant to Rule 30.4 of the United States Supreme Court, we
request a thirty (30) day extension of time to file a brief in opposition to the Petition for Writ of
Certiorari.

|am of counsel to Hon. James B. Ritts, Ontario County District Attorney, and | am assigned
to this case. | am not currently a member of the Bar of the Supreme Court of the United States,
nor is any other attorney in my Office. It is my understanding and belief that a brief in opposition
must be filed by a Bar member. As such, | am in the midst of applying for the required
membership. My application is not yet complete, as efforts were hampered by my recent Covid-
19 quarantine. Additionally, as | am not a member, this motion letter is being submitted by U.S.
Mail only (Priority Mail), and not electronically as may otherwise be required.

For these reasons, | respectfully request a thirty (30) day extension of time, until March
15, 2021 under Rule 30.1, to file a brief in opposition to the Petition for Writ of Certiorari. On
February 9, 2021, Mr. John A. Cirando, counsel for Petitioner Angnem Green, was informed of
Respondents’ intent to request a thirty-day extension of time to file an opposition to the Petition
for Writ of Certiorari. On today’s date, Mr. Cirando kindly indicated that he had no objection to
a thirty-day extension.

RECEIVED
FEB 19 2021

E OF THE CLERK
QEPSEMe COURT, U.S.

   
 

Thank you for your attention.

        
cc: John A. Cirando, Esq. (via Priority Mail)

Respectfully itted,

   
 
 

V. Christopher Eaggleston
Assistant District Attorney
Of counsel to Hon, James B. Ritts
Ontario County District Attorney
No. 20-6871

 

ANGNEM GREEN,
Petitioner,

v. No. 20-6871
STATE OF NEW YORK,

Respondent,

 

 

AFFIDAVIT OF SERVICE

I, V. Christopher Eaggleston, of lawful age, being duly sworn, upon my oath state that I
did, on the 10" day of February, 2021, send out from Canandaigua, New York, one package
containing one letter to the Clerk of the Court pursuant to Rule 30.4 in the above entitled case.
All parties required to be served have been served by Priority Mail. Packages were plainly
addressed to the following:

John. A. Cirando, Esq.

DJ. & J.A. Cirando, PLLC

250 South Clinton Street

Suite 350

Syracuse, New York 13202

Tel: (315) 474-1285

Email: cirandolaw@outlook.com
Counsel for Petitioner Angnem Green

     

. CHRISTOPHER EAGGLESTON
Assistant District Attorney

  

Sworn to before me this
10! day of February, 2021

Qrten A. (VMifli—2

i JASON A, MacBRIDE
ar 4,
Notary Public N Publio, Stas et how
No. 02MA6376554
Qualified in Ontario Cour
Commission Expires 06/11/_22_
